4a
|

OCKLE

2311 Douglas Street Ne E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B ze efis contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-746

SOUTH BAY UNITED PENTECOSTAL CHURCH
and BISHOP ARTHUR HODGES III,
Petitioners,

Ve:

GAVIN NEWSOM, in his official capacity
as the Governor of California, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 2986 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 6th day of April, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

y SEAERAL NOTARY-State of Nebraska &v 2 5 4,
RENEE J. GOSS 9. ¢ dear A

Affiant 40847

 

My Comm. Exp. September 5, 2023

 

Notary Public
